IN THE SUPREME COURT OF THE UNITED STATES
No. 20-134
ABILIO HERNANDEZ, LAZARO BETANCOURT,
NORGE RODRIGUEZ, and JOSE PEREZ,
Petitioners
v.
JASON BOLES and DONNIE CLARK,
Respondents
CERTIFICATE OF SERVICE
I, Paul Andrew Justice III, counsel for all four Petitioners, certify that on this
6th day of November 2020, I have caused a copy of the Reply to Brief in Opposition
and this present Certificate to be served electronically and with consent upon the
following opposing counsel, that I have sent the hard copy to the United States
Supreme Court via commercial carrier for delivery in three days, and that all
parties have been served:
Joseph Whalen
Associate Solicitor General
P.O. Box 20207
Nashville, TN 37202
(615) 741-3499
Joe.Whalen@ag.tn.gov

Attorney for Respondents
Jason Boles and Donnie Clark
Paul Andrew Justice III
Attorney for the Plaintiffs
1902 Cypress Drive
Murfreesboro, TN 37130
(615) 419-4994
drew@justicelawoffice.com

